No. 19-__

 

IN THE

Supreme Court of the United States

MELANIE KELSAY,
Petitioner,

Vv.

Marr Ernst,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Eighth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,500 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 26, 2019.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
